Michael C. O’Malley
CUYAHOGA COUNTY PROSECUTOR
December 18, 2020
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Ohio, ex rel. Elliott G. Feltner v. Cuyahoga County Board
of Revision, et al., U.S. Supreme Court Case No. 20-567

Dear Clerk:
Pursuant to Rule 30.4 of the Rules of the Supreme Court of the United States, we are
writing on behalf of all of the Respondents to request a 30-day extension of time (until Monday,
February 1, 2020) to file Respondents’ Brief in Opposition to the Petition for Writ of Certiorari
in the above-referenced case. The deadline for filing the Brief in Opposition is currently
December 31, 2020, but due to the upcoming Christmas and New Year holidays and other
pressing litigation deadlines, Respondents need additional time to complete the preparation of
the Brief in Opposition. This is the first request for extension of time.
Sincerely,

Janeane R. Cappara
Attorney for Respondents Cuyahoga County,
Cuyahoga County Board of Revision,
W. Christopher Murray, II, Armond Budish,
Michael Gallagher, and Michael W.
Chambers

Stephen W. Funk
Attorney for Respondent Cuyahoga County
Land Reutilization Corp.
cc: Counsel of Record for Petitioner
OFFICE OF THE PROSECUTING ATTORNEY
The Justice Center • Courts Tower • 1200 Ontario Street • Cleveland, Ohio 44113
(216) 443-7785 • Fax (216) 443-7602

